IX. CERTIFICATE OF SERVICE
I, Raymond Sánchez-Maceira, do certify that on November 9, 2020, copies of the attached
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT
OF CERTIORARI were served to each party to the above proceeding, or to that party's counsel,
and on every other person required to be served, pursuant to Supreme Court Rules 29.3 and 29.4,
by depositing an envelope containing the above documents in the United States Mail, properly
addressed to them with first-class postage prepaid.
The names and addresses of those served are as follows:
U.S. Department of Justice
Room 5614
Dept. of Justice
950 Pennsylvania Ave. N.W.
Washington DC 20530-0001

US Attorney’s Office
Torre Chardón 1201
350 Chardón Ave.
San Juan P.R. 00918

In San Juan, Puerto Rico, November 9, 2020.

s/RAYMOND SÁNCHEZ-MACEIRA, ESQ
COURT APPOINTED COUNSEL FOR PETITIONER
PO BOX 191972
SAN JUAN, PUERTO RICO 00919
TEL. 787-721-3370/ FAX 787-721-4706

20

